                                Office of Inspector General
                                                                             September-November 2012
      Business Loans

New Jersey Man Sentenced                     tion for allowing the men to use            The investigation disclosed that the
                                             their personal information to fabricate     man signed several SBA documents in
On September 11, 2012, a New Jersey                                                      connection with a $750,000 SBA-
                                             application documents in order to in-
man was sentenced to 18 months in                                                        guaranteed loan to a business. The
                                             duce the banks to approve the loans.
prison, 24 months of probation, and                                                      man claimed that he was the 100%
                                             They also enticed the straw borrowers
ordered to pay a special assessment fee                                                  owner, when, in fact, he had no own-
                                             to submit documents indicating that
of $100. He previously pled guilty on                                                    ership interest in the company. He
                                             they owned thriving businesses when,
May 9, 2012, to a criminal Information                                                   also signed SBA documents affirming
                                             in fact, the businesses only existed on
charging him with one count of conspir-                                                  that certain portions of the loan pro-
                                             paper. The men fraudulently obtained
acy to commit bank fraud. The investi-                                                   ceeds were for equipment and inven-
                                             a total of four SBA loans and two regu-
gation revealed that an organized group                                                  tory purchases, working capital, and
                                             lar bank loans. This case was initiated
of criminals obtained credit cards,                                                      debt repayment. However, he knew
                                             as a result of a referral from the SBA
loans, and SBA-guaranteed loans from                                                     the loan proceeds were going to be
                                             Utah District Office. This is a joint in-
various lending institutions using false                                                 applied toward the outstanding loan
                                             vestigation with the IRS-CI.
identities, documents, and business                                                      balance of another business. This is a
names. Loan officers at various banks                                                    joint investigation with the FBI.
were also involved in the scheme. The        Former Missouri Registered Nurse
New Jersey man obtained $15,000 in           Sentenced
loans from one bank; $50,000 from a
                                                                                         Maryland Woman and Former
second bank; and a $50,000 SBA-              On September 14, 2012, a former Mis-        SBA Employee Plead Guilty to
guaranteed loan from yet another bank.       souri registered nurse was sentenced        Wire Fraud
He obtained these loans in the name of       to 2 years of probation and ordered to
his wife and a fictitious company. This      pay a $100 special assessment. The          On September 27, 2012, a Maryland
is a joint investigation with the Internal   investigation revealed that an individu-    woman pled guilty to one count of
Revenue Service–Criminal Investiga-          al recruited the former nurse to obtain     conspiracy to commit wire fraud. The
tions (IRS-CI), the Englewood New Jer-       an SBA loan. The man agreed and ob-         woman, along with a co-conspirator,
sey Police Department, and the Bergen        tained a $175,070 loan from a bank.         was charged with one count of con-
County Prosecutors’ Office.                  He received $7,500 for obtaining the        spiracy to commit wire fraud on Au-
                                             loan. The remaining loan proceeds           gust 8, 2012. The second woman, a
                                             went to benefit other individuals and       former payroll assistant at the SBA,
Former Utah Business Owner and               business entities, which included mak-      pled guilty in U.S. District Court for the
Mortgage Loan Officer Sentenced              ing payments on SBA-guaranteed loans.       District of Maryland to one count of
On September 13, 2012, a Utah busi-          This is a joint investigation with the      conspiracy to commit wire fraud on
ness owner and former mortgage loan          Federal Bureau of Investigation (FBI).      October 11, 2012. The second woman
officer, was sentenced to 10 days incar-                                                 allegedly provided three altered cop-
ceration, 6 months of home confine-          Missouri Man Sentenced and Or-              ies of her own SBA Earnings and Leave
ment, 30 months supervised release,          dered to Pay Nearly $1,113,779 in           Statement (E & L) to help the first
200 hours of community service, and          Restitution                                 woman finance an automobile. The
restitution of $165,960.49, to be paid                                                   altered E & L reflected that the first
jointly with his co-defendant. The sub-                                                  woman was an SBA employee, even
                                             On September 18, 2012, a Missouri
ject had previously pled guilty to one                                                   though she had never worked at the
                                             man was sentenced to 5 years of pro-
count of money laundering. The inves-                                                    SBA, and was not employed at the
                                             bation, and ordered to pay restitution
tigation revealed that both men recruit-                                                 time. When the automobile dealer-
                                             of $1,113,778.51, which included
ed “straw borrowers” to obtain                                                           ship requested additional proof of
                                             $578,580.78 to the SBA. He previously
$335,000 in loans. The straw bor-                                                        employment, the former SBA employ-
                                             pled guilty to one count of making false
                                                                                         ee faxed a fourth altered E &L from
rowers were promised compensa-               statements for the purpose of influenc-
                                             ing the SBA, and aiding and abetting.
                                                                                                                   Page 2

                    SBA headquarters in Wash-          New Jersey Woman                   trol of the business; however,
                    ington, DC, to the dealership      Pleads Guilty to                   she obtained two SBA-
                    in Maryland.                       Misprision of a Felony             guaranteed loans, totaling
                                                                                          $350,000, for the business.
                                                       On October 19, 2012, a New         In connection with her appli-
                    Texas Couple Indicted                                                 cation for these SBA loans,
                                                       Jersey woman pled guilty to a
                                                       criminal Information charging      she knowingly made false
                    On October 1, 2012, a Texas
                                                       her with one count of mispri-      statements to the SBA. She
                    couple was indicted and
                                                       sion of felony. The investiga-     claimed to have never
                    charged with one count of
                    conspiracy and one count of        tion revealed that an orga-        been charged, arrested, or
                    wire fraud. In addition, the       nized group of criminals ob-       convicted of any criminal of-
                    husband was charged with           tained credit cards and loans      offense, when, in fact, she
                    one count of false state-          from various lending institu-      had been charged with ille-
                    ments. The indictment also         tions using false identities,      gally signing a petition; pass-
                    included a notice of criminal      documents, and business            ing a bad check; and posses-
                    forfeiture. The couple ap-         names. Loan officers at vari-      sion of a controlled sub-
                    plied for and received a           ous banks were also involved       stance. This is a joint investi-
                    $420,000       SBA-guaranteed      in the scheme. Many of the         gation with the FBI.
                    loan to purchase a conven-         loans were SBA-guaranteed
                    ience store. The investigation     and are in default. The wom-       Alabama Man Indicted on
                    was predicated on a referral       an, as a member of this            Wire Fraud, False
                    from an anonymous com-             group, obtained a loan from a      Statements, and Money
 Alabama man        plainant who alleged that the      bank for $50,000 using the         Laundering
was indicted on     couple did not have adequate       identity of another individual
   five counts of   funds to pay the required          to obtain the loan for a busi-
                                                                                          On October 30, 2012, an Ala-
wire fraud, five    cash injection. The husband        ness. This is a joint investiga-
                                                                                          bama man was indicted on
 counts of false    purported to the lender that       tion with the IRS-CI, the Eng-
                                                                                          five counts of wire fraud; five
                    most of the $146,359.45 cash       lewood New Jersey Police
  statements to                                                                           counts of false statements to
                    injection was coming from          Department, and the Bergen
 the SBA, three                                                                           the SBA; three counts of false
                    the sale of a previously           County Prosecutor’s Office.
 counts of false                                                                          statements on loan and credit
                    owned convenience store. In                                           applications, and one count
 statements on                                         Missouri Woman
                    reality, the couple had de-                                           of money laundering. The
loan and credit     pleted the majority of those       Sentenced                          allegations charge that the
    applications,   funds prior to closing on the                                         man failed to file corporate
 and one count      current loan. The wife se-         On October 23, 2012, a Mis-        personal tax returns from
        of money    cured lines of credit from two     souri woman was sentenced          2002 through 2009. He is
     laundering.    banks using different compa-       to three years of probation        also alleged to have provided
                    ny names.            At least      and ordered to pay a $100          false and unfiled tax returns
                    $91,269.45 of the cash injec-      special assessment fee. She        to a bank to secure an SBA-
                    tion was derived directly from     was previously charged with        guaranteed $300,000 line of
                    these lines of credit. In their    one count of making a false        credit and to the SBA for con-
                    dealings with the lender, the      statement to the SBA, and          tinued certification as an 8(a)
                    couple did not disclose these      aiding and abetting.       The     firm. This case was predicat-
                    additional debts and certified     woman is one of eighteen           ed on information received
                    the accuracy of false personal     people charged in a complex        from the IRS-CI. This is a joint
                    and business financial state-      conspiracy to defraud a bank       investigation with the IRS-CI,
                    ments. The couple later filed      and the SBA. According to          U.S. Army Criminal Investiga-
                    for bankruptcy and listed the      the superseding information        tion Division (Army CID), and
                    lines of credit as part of their   and plea agreement, she was        the Defense Criminal Investi-
                    $456,806.01 in unsecured           the registered agent for a         gative Service (DCIS).
                    debts.                             business organized by her
                                                       father. The woman had no
                                                       ownership interest in, or con-
                                                                                                                    Page 3

                      Alabama Man Indicted on           paired with the help of an         New York Man Sentenced
                      Conspiracy                        SBA Katrina disaster loan.
                                                        She was fully aware that the       On September 19, 2012, a
                                                                                           New York businessman was
                      On November 28, 2012, an          couple intended to alter the
                                                                                           sentenced to 41 months in
                      Alabama man was indicted on       documentation and fraudu-
                                                        lently submit them to the SBA      prison, a $30,000 fine, and 3
                      one count of conspiracy and
                                                        as their own. This is a joint      years of supervised released
                      one count of false statement                                         as a result of his jury trial
                      on a loan application. This       investigation with the U.S.
                                                                                           conviction. The verdict found
                      case was predicated on infor-     Department of Homeland
                                                        Security, OIG.                     him guilty of one count of
                      mation received from the SBA                                         mail fraud; three counts of
                      OIG Early Fraud Detection                                            major fraud against the Unit-
                      Working        Group      (the          Government                   ed States; one count of false
                      Group). The Group flagged              Contracting and               statements; and one count of
                      an SBA-guaranteed business                                           tampering with a victim, wit-
                      loan of $1,529,000 for further
                                                                Business
                                                              Development                  ness, or an informant. The
                      review because it had de-
                                                                                           charges relate to his business
                      faulted quickly with an out-
                                                                                           falsely claiming status as an
                      standing       balance      of    Boise Business Owner
                                                                                           SDVOSB. His company was
                      $1,380,486. The loan was          Pleads Guilty                      awarded one Veteran Owned
                      used to fund the sale of a
                                                                                           (VO) set-aside contract for
                      business from the man to          On September 18, 2012, the         $5,698,000 and three SDVO
                      woman. The indictment al-         owner of a Boise company           set-aside contracts totaling
                      leges that the $260,000 equi-     pled guilty to one count of        $10,980,690. The evidence
                      ty injection that the woman       wire fraud. He also consent-
     Alabama Man                                                                           gathered revealed that he is
                      was required to pay was actu-     ed to the forfeiture of            neither a veteran nor a ser-
 Indicted After the   ally paid by the man who was      $150,000.        The charges
    SBA OIG’s Early                                                                        vice-disabled veteran. This is
                      the seller. Specifically, it is   against the man were in con-       a joint investigation with the
   Fraud Detection    alleged that they created and     nection with fraud in SBA’s        VA OIG and Army CID.
    Working Group     submitted false bank state-       Service-Disabled       Veteran-
       Successfully   ments, checks, and certificate    Owned        Small     Business
   Flags$1,380,486
                                                                                           Chief Financial Officer
                      of deposit receipts to repre-     (SDVOSB) and Historically
Early Default Loan.   sent that the funds used to                                          Pleads Guilty
                                                        Underutilized Business Zone
                      pay the equity injection were     (HUBZone) programs; the            On September 26, 2012, in
                      originally a gift from the        Veteran Affairs’ (VA) SDVOSB       U.S. District Court, District of
                      woman’s grandmother.              Program; and the General           Columbia, the chief financial
                                                        Service      Administration’s      officer of a technology firm
                            Disaster Loans              (GSA) Surplus Property Pro-        pled guilty to one count each
                                                        gram, through which SBA-           of bribery, conspiracy to com-
                      Louisiana Woman                   certified 8(a) companies can       mit bank fraud, and willful
                      Sentenced for Fraud               obtain surplus property. The       failure to file a tax return.
                                                        man established “shell corpo-      The technology firm was a
                      On November 5, 2012, a Loui-      rations” to benefit, financial-    subcontractor to an SBA 8(a)
                      siana woman was sentenced         ly, from SBA set-aside pro-        program participant.        The
                      to 3 years of probation, or-      grams and government sur-          investigation revealed that
                      dered to pay a $500 fine, res-    plus property programs in          the CFO engaged in bribery of
                      titution of $26,814.85, and a     which he was not otherwise         government officials. Specifi-
                      $100 special assessment fee.      entitled to participate. This is   cally, he gave, offered, and
                      The investigation revealed        a joint investigation with the     promised over $200,000 for a
                      that she provided her rela-       DCIS, IRS-CI, VA OIG, GSA          U.S. Army public official’s
                      tives, a married couple, with     OIG, U.S. Department of Agri-      benefit. In return, the public
                      invoices and receipts from        culture OIG, Department of         official provided assistance in
                      the reconstruction of her own     Interior OIG, Air Force Office     directing subcontracts to his
                      home, which was being re-         of Special Investigations.         firm and providing preferen-
                                                                                                                 Page 4

                       tial treatment to the firm       Co-Owner of Construction         erwise not have been entitled
                       with potential contracts         Firm Indicted                    to receive. The contracts
                       awarded through the U.S.                                          were valued at nearly
                       Army. Additionally, he en-       On October 23, 2012, the co-     $6,836,278. The owner also
                       gaged in a scheme to defraud     owner of a construction firm     admitted to providing the
                       and obtain money and prop-       was indicted on four counts      Veterans Administration con-
                       erty from financial institu-     of wire fraud and one count      tracting officer a fraudulent
                       tions by means of false and      of conspiracy to defraud the     resume in which he claimed
                       fraudulent pretenses, repre-     United States. The indict-       to have served three tours in
                       sentations, and promises.        ment alleges that the general    Southeast Asia as a highly
                       Finally, the man willfully       construction company falsely     decorated officer in the U.S.
                       failed to file an income tax     claimed SDVOSB status. The       Army. Government records
                       return related to income         company has been awarded         show that he never left the
                       earned in calendar year 2010     in excess of $100 million in     state of Missouri during his
                       in excess of $100,000. This is   SDVOSB set-aside contracts.      service in the Army and Mis-
                       a joint investigation with the   The co-owner is alleged to       souri National Guard. This is
                       FBI, DCIS, IRS-CI, and the Ar-   have falsely certified that      a joint investigation with the
                       my CID.                          service-disabled     veterans    GSA OIG, the VA OIG, and
                                                        were president and majority      DCIS.
                       President of                     owner(s) of the firm when, in
                       Massachusetts Business           fact, he was the one who         Vice President of
                       Pleads Guilty to                 actually founded and operat-     Technology Firm
Personal forfeiture    Conspiracy to Commit             ed the business. The co-         Sentenced
                       Wire Fraud                       owner is neither a veteran
judgment of nearly
                                                        nor a service-disabled veter-    On November 19, 2012, the
        $6,836,278
                       On September 27, 2012, the an. This is a joint investiga-         executive vice president of a
entered against the
                       president and co-owner of a tion with the VA OIG, GSA             technology firm was sen-
   owner of Kansas
                       Massachusetts business pled OIG, and Army CID.                    tenced in U.S. District Court,
  construction firm.   guilty to one count of con-                                       District of Columbia, to 15
                       spiracy to commit wire fraud. Owner of Kansas                     months incarceration; 36
                       This case was initiated Construction Firm                         months supervised release,
                       through a referral from the                                       500 hours community ser-
                                                        Sentenced to 87 Months           vice, and a $100 special as-
                       Government Accountability
                       Office FraudNet, which al-                                        sessment fee. The investiga-
                       leged fraudulent behavior by On November 5, 2012, the             tion revealed that the man
                       multiple SDVOSBs. The alle- owner of a Kansas construc-           conspired with others to de-
                                                        tion firm was sentenced to 87    fraud the United States and
                       gations stated that SDVOSB
                                                        months in prison and 3 years     obtain money and property
                       firms, including this Massa-
                       chusetts business, had been of supervised release. In ad-         by means of false and fraudu-
                       certified under fraudulent dition, a personal forfeiture          lent pretenses and represen-
                                                        judgment of $6,836,277.94        tations. Specifically, he sub-
                       pretenses in order to obtain
                                                        was entered against the man      mitted false information to
                       government set-aside con-
                       tracts. The investigation re- who pled guilty on April 9,         federal agencies to procure
                                                        2012, to single counts of con-   and attempt to procure fed-
                       vealed     the business was
                                                        spiracy, major program fraud,    eral contracts, and to set and
                       fraudulently established as an
                       SDVOSB by using the presi- wire fraud, money laundering           attempt to set prices on fed-
                       dent’s service-disabled sta- conspiracy, and false state-         eral contracts. The technolo-
                                                        ments.      The investigation    gy firm is an SBA-certified 8
                       tus, for the sole purpose of
                                                        revealed that he and his busi-   (a) program participant. This
                       obtaining set-aside con-
                       tracts. This is a joint investi- ness fraudulently claimed        is a joint investigation with
                                                        SDVOSB status to obtain          the FBI, VA OIG, GSA OIG, and
                       gation with the VA OIG, Army
                                                        11 federal government con-       U.S. Department of Labor
                       CID, the Department of Labor
                       OIG, and GSA OIG.                tracts, which they would oth-    OIG.
                                                                                                                Page 5

                   Former SBA Employee               guilty to bribery, conspiracy,     jointly and severally with two
                   Sentenced                         money laundering, and other        co-conspirators. The investi-
                                                     charges.                           gation revealed that the man
                   On November 27, 2012, an                                             conspired to conduct finan-
                   Alabama woman, a former           Former Army Corps of               cial transactions, to conceal
                   SBA employee, was sen-            Engineers Program                  from law enforcement and
                   tenced to 4 months incarcer-                                         tax authorities the proceeds
                                                     Manager Sentenced
                   ation; 36 months supervised                                          of a bribery scheme. Further,
                   release (that included four                                          the investigation revealed
                                                     On September 13, 2012, a           that he conspired to use such
                   months of home detention);
                                                     former program manager for         proceeds unlawfully, to ob-
                   restitution in the amount of
                                                     the U.S. Army Corps of Engi-       tain real property, vehicles,
                   $49,612; and a $100 special
                                                     neers was sentenced to 6           and luxury items for his per-
                   assessment fee. On August 6,
                                                     years in prison, 3 years super-    sonal benefit. The owner also
                   2012, she pled guilty to one
                                                     vised release, and 500 hours       caused his firm to submit
                   count of fraud by wire. The
                                                     of community service. He           fictitious purchase orders and
                   investigation revealed that
                                                     was also ordered to pay            invoices to a prime contrac-
                   she made approximately
                                                     $1.25 million in restitution       tor, in order to obtain pay-
                   $30,553 of personal, unau-
                                                     and a $1.25 million forfeiture     ments from the U.S. Army
                   thorized purchases using the
                                                     money judgment. The sen-           Corps of Engineers for gov-
                   government purchase card
                                                     tencing was a result of his        ernment contracts.         The
                   assigned to the SBA Alabama
                                                     participation in a scheme in       prime contractor was an SBA-
                   District Office. Additionally,
    Former SBA                                       which corrupt public officials     certified Alaska Native Corpo-
                   she filed about 59 falsified
                                                     steered government con-
      Employee     travel vouchers, resulting in                                        ration program participant.
                                                     tracts in exchange for more
  Sentenced for    her receipt of approximately
                                                     than $30 million in bribe and
  Unauthorized     $21,905 from the SBA that
                                                     kickback payments. Specifi-        President of Technology
         Use of    she should not have received.
                                                     cally, the former program          Firm Sentenced
   Government      Finally, she made unauthor-
                                                     manager received and ac-
  Purchase Card    ized purchases on her govern-
                                                     cepted things of value, for his    On October 17, 2012, the
                   ment travel card.
   and Falsified                                     personal benefit and for the       president of a technology
Travel Vouchers                                      benefit of others, from two        firm was sentenced in U.S.
                                                     businesses,      both      SBA-    District Court, District of Co-
                   Sentencing Continues in           certified 8(a) program partici-    lumbia, to 33 months of in-
                   Scheme Involving More             pants, in return for funding       carceration followed by 36
                   Than $30 Million in               and approving contracts. This      months of supervised release,
                   Bribes and Kick-back              is a joint investigation with      a $100 special assessment
                                                     the FBI, the IRS-CI, Army CID,     fee, and restitution of
                   Payments
                                                     and DCIS.                          $984,664.20. The sentencing
                   In a continuing multi-agency                                         relates to a scheme that in-
                   investigation, 12 individuals
                                                     Owner of Construction              volved more than $30 million
                   have thus far been charged in     Management Firm                    in bribes and kickback pay-
                   a scheme involving more than      Sentenced                          ments and the planned steer-
                   $30 million in bribes and kick-                                      ing of a $780 million govern-
                   back payments. The conspir-       On October 16, 2012, the           ment contract. The investiga-
                   acy involved the use of a $1.3    owner of a construction man-       tion revealed that the man
                   billion Alaska Native Corpora-    agement firm was sentenced         used the firm to pay, directly
                   tion (ANC) sole source con-       in U.S. District Court, District   and indirectly, approximately
                   tract to pay for the bribes and   of Columbia, to 70 months of       $626,000 of fraudulent pro-
                   the planned steering of a         incarceration followed by 36       ceeds to a program manager
                   $780 million government con-      months of supervised release,      with the U.S. Army Corps of
                   tract to a favored Section 8(a)   a $100 special assessment          Engineers, at the program
                   program participant. All of       fee, and restitution of            manager’s direction. Subse-
                   these individuals have pled       $9,405,230.70 to be paid           quently, the program manag-
                                                                                           Page 6

                      er directed the business to       ceration; 36 months super-
                      retain       approximately        vised release, 500 hours com-
                      $245,395 of the fraudulent        munity service, and a $100
                      proceeds. The business was        special assessment fee. The
                      an SBA certified 8(a) program     investigation revealed that
                      participant.                      the owner and others en-
                                                        riched themselves through
                      Director of Contracts for         awards made by the U.S. Ar-
                      Technology Firm                   my Corps of Engineers
                      Sentenced                         (USACE) to the two firms.
                                                        Specifically, he gave the pro-
                      On October 18, 2012, the          gram manager $290,000 in
                      Director of Contracts for the     return for approving the
                      technology firm was sen-          award of contracts and sub-
                      tenced to 87 months of incar-     contracts to the two firms,
                      ceration followed by 36           one of which is an SBA-
                      months of supervised release,     certified 8(a) program partici-
                      a $100 special assessment         pant. This is a joint investiga-
                      fee, and restitution of           tion with the FBI, IRS-CI, Army
                      $9,405,230.70 to be paid          CID, and DCIS.
                      jointly and severally with two
                      co-conspirators. The investi-
                      gation revealed that Director
   “Restitution of    of Contracts gave, offered,
nearly $9,405,231     and promised over $7 million,
 to be paid jointly   directly and indirectly, to the
and severally with    program manager at the U.S.
               two    Army Corps of Engineers in
 co-conspirators.”    return for his approval of
                      contracts and subcontracts
                      through the U.S. Army Corps
                      of Engineers and the technol-
                      ogy firm and the construction
                      management firm.
                      Additionally, the Director of
                      Contracts, a prime contractor
                      employee, solicited, accept-
                      ed, and attempted to accept
                      kickbacks in excess of $1 mil-
                      lion from subcontractors in
                      exchange for awarding con-
                      tracts and providing favorable
                      treatment.
                      Owner of Two Technology
                      Firms Sentenced to 27
                      Months

                      On November 13, 2012, the
                      owner of two technology
                      firms was sentenced in U.S.
                      District Court, District of Co-
                      lumbia, to 27 months incar-
                                                                                                                 Page 7

                                                                Audit Reports
                         Audit Report 12-19R
                         On September 4, 2012, the OIG issued Advisory Memorandum 12-19R, A Non-Manufacturer
                         Rule Waiver Allowed an 8(a) Recovery Act Contract to Bypass Established Small Business Re-
                         quirements. This advisory memorandum was the first in a series of on-going limited scope
                         audits to review the extent to which selected firms participating in the 8(a) Business Develop-
                         ment Program are complying with prime contractor performance requirements for set-aside
                         contracts.

                         For this audit, the OIG selected two contracts performed by 8(a) program participants: one 8
                         (a) contract and one Historically Underutilized Business Zone or HUBZone contract. The OIG
                         found that one contractor complied with the performance of work requirements, and the oth-
                         er was exempt because of a waiver from the SBA. One contract for $5.4 million was awarded
                         to provide recruiting services for the Census Bureau; however, the contractor had not used
                         any subcontractors to date. An Alaska Native Corporation (ANC), who utilized a subcontractor
                         to provide imaged personal computers and monitors for the Department of Labor, performed
                         another 8(a) set-aside contract for $7.78 million. However, the 8(a) set-aside contract was a
                         pass through contract where the large business received most of the procurement dollars, and
                         the ANC received $153,000.

                         The use of the non-manufacturer waiver enabled a firm to bypass small business subcontract-
                         ing requirements resulting in a pass through contract to large businesses. Although author-
          Nine actions   ized under statute, these types of procurements may not provide the developmental opportu-
                         nities to small businesses intended through participation in the 8(a) program. Moreover,
     recommended to
                         these types of procurements also funnel taxpayer funds to large businesses instead of devel-
improve accountability   oping small businesses to compete in the American economy. As a result, a large business
                         received 8(a) set-aside funds through a pass through without competing in the open market.
   and performance of
  STEP grant program.    Audit Report 12-21

                         On September 25, 2012, the OIG issued Audit Report 12-21, Review of SBA’s State Trade and
                         Export Promotion (STEP) Grant Program. The OIG reviewed the five largest grants, awarded to
                         California, Pennsylvania, Washington, Michigan, and Illinois, in order to determine whether
                         grant recipients were measuring program performance, as well as the results of those meas-
                         urements. In addition, the OIG reviewed the overall management and effectiveness of the
                         STEP grant program.

                         The OIG found that grant recipients’ performance measures did not demonstrate whether
                         STEP program goals were achievable. Specifically, grant recipients’ metrics were not adequate
                         to measure performance. In addition, SBA personnel did not meet with Congress to identify
                         and clarify the FY 2011 STEP program measures for success. Further, the SBA mismanaged
                         the STEP grant program. For example, personnel from the SBA Office of International Trade
                         and the Office of Grant Management awarded a grant to an ineligible applicant, provided un-
                         timely and inaccurate responses to inquiries, and failed to enforce grant terms and condi-
                         tions. The audit team recommended nine specific actions to improve accountability and per-
                         formance of the STEP grant program.
                                                                                                                    Page 8

                          Audit Report 12-23R
                          On September 27, 2012, the OIG issued Audit Report 12-23R, 504 Recovery Act Loans were
                          Originated and Closed in Accordance with SBA Policies. The OIG found that the SBA generally
                          originated and closed 504 Recovery Act loans in accordance with SBA policies and proce-
                          dures. However, the OIG did identify origination and closing deficiencies in four of the loans
                          reviewed. Specifically, two loans were approved that lacked creditworthiness; one loan was
                          approved with a collateral shortfall; and one loan was approved as an existing business in-
                          of as a new business transaction. These four loans had improper loan approvals of
                          $1,561,000. All four loans were current as of July 31, 2012. The OIG made three recommen-
                          dations.

                          Advisory Memorandum 12-22

                          On September 28, 2012, the OIG issued Advisory Memorandum 12-22, The SBA’s Ratification
                          Process May Lead to Anti-Deficiency Act Violations as part of an on-going audit of the Small
                          Business Administration’s Unauthorized Commitments. The OIG determined that the SBA had
                          ratified four unauthorized commitments associated with an expired postage meters contract
                          without determining whether unobligated funds were available when the unauthorized com-
                          mitment initially occurred. Without such a determination, these ratifications appeared to be
                          invalid under Federal Acquisition Regulations (FAR) and U.S. Government Accountability Office
                          guidance. Additionally, the ratifications may put the Small Business Administration (SBA, or
                          the Agency) at risk for an Anti-Deficiency Act violation. These issues were addressed with SBA
                          officials in May and August 2012. Subsequently, the Agency has since updated its ratification
                          template to ensure that funds existed at the time the unauthorized commitment was made
                          for all ratifications since May 2012 and all future ratifications. Since raising these concerns
                          with management, the SBA has begun reviewing all ratifications made between February 2011
                          and May 2012 to ensure that they comply with all of the requirements outlined in the FAR.
“The SBA’s Ratification   The audit team recommended that the SBA, more specifically the Chief Financial Officer: (1)
  Process May Lead to     continue to review the remaining ratification actions that have been taken using the previous
                          template to determine if they contain similar deficiencies, and undertake appropriate correc-
    Anti-Deficiency Act   tive action to ensure that all ratifications approved by the SBA are valid under the FAR;
           Violations.”   and (2) review and determine if any Anti-Deficiency Act violations occurred in the previously
                          ratified unauthorized commitments.


                          Audit Report 12-20R

                          On September 28, 2012, the OIG issued Audit Report 12-20R, Addressing Performance Prob-
                          lems of High-Risk Lenders Remains a Challenge for the Small Business Administration. The
                          audit objective was to determine whether the SBA took actions to mitigate material lender
                          risks identified in on-site reviews before and after passage of the Recovery Act. To answer the
                          objective, the OIG examined the most recent on-site review reports completed between
                          September 2005 and October 2010 for 16 lenders selected from a universe of 57 lenders, with
                          33 reports. The OIG found that the SBA did not always take actions to address lender risks and
                          limit its exposure to losses from a combined portfolio worth more than $4.5 billion. The OIG
                          issued two findings, specifically: (1) the SBA did not recognize and take action to address sig-
                          nificant lender weaknesses and, (2) the SBA needs to improve its on-site and purchase review
                          process. The OIG made six recommendations.
                                                                                            Page 9

Report Number 13-02
On October 15, 2012, the OIG issued Report 13-02, Fiscal Year 2013 Report on the Most Seri-
ous Management and Performance Challenges Facing the Small Business Administration.
In this report, the OIG provided its current assessment of the SBA's programs and activities
that pose significant risks, including those that are particularly vulnerable to fraud, waste, er-
ror, mismanagement, or inefficiencies. While the SBA’s color scores improved in six 6 of the
10 existing challenges, scores dropped in three areas related to the Loan Management and
Accounting System. challenge Further, a new challenge, related to Acquisition Management,
was added to the overall report.


Audit Report 13-03

On October 23, 2012, the OIG issued Audit Report 13-03, Benefits of Mentor Protégé Joint
Ventures are Unknown: Robust Oversight is Needed to Assure Success and Avoid Abuse. The
objectives of this audit were to (1) determine the extent to which the joint venture agreement
between a mentor and protégé resulted in substantial benefits to the 8(a) participant, and (2)
assess the SBA’s oversight of Mentor Protégé Joint Venture Arrangements.

The OIG found that the SBA lacked performance measurements for joint venture arrange-
ments and did not effectively oversee 8(a) firms that have joint venture agreements. As a re-
sult, the SBA did not have the information necessary to determine whether mentor protégé
joint ventures benefitted the 8(a) participant. This lack of information weakened SBA’s ability
to effectively oversee and assess the development of 8(a) participants with mentor and proté-
gé joint venture agreements and increased the risk of program abuse by participants. The OIG
made six recommendations.




                           We’re on the Web!
      http://www.sba.gov/office-of-inspector-general
                               To promote integrity, economy, and efficiency, we
                               encourage you to report instances of fraud, waste,
                                    or mismanagement to the OIG Hotline.*
Office of Inspector General
    Peggy E. Gustafson,
     Inspector General                                    Online:
     If you are aware of              http://www.sba.gov/office-of-inspector-
suspected waste, fraud, or                        general/2662
abuse in any SBA program,
 please report it online at
http://www.sba.gov/office
-of-inspector-general/2662                                 Call:
  Or call the OIG Hotline                     1-800-767-0385 (Toll Free)
toll-free, at (800) 767-0385

    We welcome your
comments concerning this                              Write or Visit:
   update or other OIG
 publications. To obtain                 U.S. Small Business Administration
copies of these documents                     Office of Inspector General
   please contact us at:
                                                 Investigations Division
         SBA OIG                           409 Third Street, SW (5th Floor)
   409 Third Street SW,
        7th Floor                               Washington, DC 20416
  Washington, DC 20416
   E-mail: oig@sba.gov
Telephone: (202) 205-6586
   FAX (202) 205-7382

                               **In accordance with Sections 7 and 8L(b)(2)(B) of the Inspec-
                               tor General’s Act, confidentiality of a complainant’s personal-
                               ly identifying information is mandatory, absent express con-
                               sent by the complainant authorizing the release of such infor-
                               mation.
